               OFFICE OF INSPECTOR GENERAL


                FINANCIAL MANAGEMENT SYSTEM &
                    COMPLIANCE EVALUATION
                       ON NEA GRANTS TO


              UNIVERSITY MUSICAL SOCIETY
                                        Ann Arbor, MI

                                  Report No. SCE-10-01
                                    January 28, 2010




                                  REPORT RELEASE RESTRICTION

In accordance with Public Law 110-409, The Inspector General Act of 2008, this report shall be posted on
the National Endowment for the Arts (NEA) website not later than three (3) days after it is made publicly
available with the approval of the NEA Office of Inspector General. Information contained in this report
may be confidential. The restrictions of 18 USC 1905 should be considered before this information is
released to the public. Furthermore, information contained in this report should not be used for
purposes other than those intended without prior consultation with the NEA Office of Inspector General
regarding its applicability.
                                    INTRODUCTION


BACKGROUND

University Musical Society (UMS) was established in December 1880. UMS presents a full
spectrum of the performing arts, including internationally renowned recitalists and orchestras,
dance and chamber ensembles, jazz and world music performers, and opera and theatre.
Through educational endeavors, commissioning of new works, youth programs, artist residencies
and other collaborative projects, UMS now hosts approximately 75 performances and more than
100 educational events each season.

OBJECTIVE AND SCOPE

The objective of this financial management system and compliance evaluation by the National
Endowment for the Arts (NEA) Office of Inspector General (OIG) is to determine whether the
organization’s financial management system and recordkeeping complies with the requirements
established by the Office of Management and Budget (OMB) and NEA’s General Terms and
Conditions for Grants and Cooperative Agreements to Organizations (General Terms). The
evaluation was conducted in accordance with the President’s Council on Integrity and Efficiency
Quality Standards for Inspections, as applicable.

PRIOR AUDIT COVERAGE

During the past five years, the NEA Office of Inspector General has not issued any audit reports
on Federal grants awarded to the UMS. As of our site visit October 10, 2008, the most recent
issued independent auditor’s report on the financial statements of UMS was for the year ended
June 30, 2008. The audit was conducted by Pricewaterhouse Coopers LLP, which issued an
unqualified (clean) opinion. UMS was not subject to the audit requirements of OMB Circular
A-133.


                           RESULTS OF EVALUATION
Our evaluation concluded that UMS’ financial management system did not provide for adequate
segregation of duties. In addition, UMS did not retain proper documentation for some expenses
and did not maintain personnel activity reports. UMS also did not have a Section 504 self-
evaluation on file. Details are presented in the following narrative:

PERSONNEL ACTIVITY REPORTS
UMS did not maintain personnel activity (time and effort) reports for Grant No. 06-5400-7030,
which was awarded $50,000 for the period January 1, 2006 to June 30, 2006. At the time of the
award, personnel activity reports were required for all employees whose salaries and fringe
benefits are charged, in whole or in part, to either the award or the matching funds if the award is
$50,000 or more. As a result, we are questioning $111,207 in salary expense. This requirement
                                                                                                   1
is mandated by OMB and is detailed in NEA’s General Terms. A sample personnel activity
report is also provided in the General Terms.

UMS was able to meet the grant’s matching requirement, exclusive of any questioned salaries;
therefore, we are not requiring any additional action for this grant. However, we are
recommending that UMS develop procedures to ensure that individual personnel activity reports
are maintained for employees whose salaries are charged, in whole or in part, to future grant
awards that are $50,000 or more.

INADEQUATE DOCUMENTATION
Our evaluation revealed that UMS could not provide adequate support documentation for some
of the costs reported as total outlays on its final Financial Status Report. The NEA Instructions
for Record Retention state:

     “You must maintain financial records, supporting documents (such as cancelled checks, invoices,
     contracts, travel reports, donor letters, in-kind contribution reports, and personnel activity reports),
     statistical records, and all other records pertinent to an award consistent with the provisions outlined
     in OMB Circular A-110, Section 53, or the “Common Rule” Section 1157.42, as applicable. Generally,
     the retention period is three years from the date the final Financial Status Report is filed.”

The grant reviewed (Grant No. 06-5400-7030) included questioned costs totaling $56,539 for
which UMS did not have adequate supporting documentation.

               UMS included airfare, space rental, and other costs totaling $19,476 without
               adequate supporting documentation.

               UMS also included $37,063 of allocated costs for Programs, Education, and
               Marketing without documenting the method of allocation. According to OMB
               A-122, Cost Principles for Non-Profit Organizations, if an allocation method is
               used, it should be justified in writing, which UMS did not do.

Since UMS has more than exceeded the matching requirement, even if such costs are disallowed,
we are not requiring any additional action to support costs for the grant. However, for the
ongoing and future grants, we are recommending that procedures be implemented to ensure that
UMS maintains supporting documentation for all expenditures including costs allocation
methods.

SEGREGATION OF DUTIES
UMS has a limited number of staff and all of the accounting functions are performed by the two
individuals. For example, the bank reconciliation is not independently reviewed or verified by
someone other than the preparer.

A lack of segregation of duties represents a significant deficiency in internal controls and could
lead to fraud, waste and abuse. Based on our review, we are recommending that UMS develop

                                                                                                            2
and implement procedures to provide adequate segregation of duties in the financial area. Some
possible procedures that UMS might consider are:

           Board members review bank statement reconciliation;
           Set cash limits on signature authority for payments; and
           Require two signatures on checks over a certain amount.

SECTION 504 SELF-EVALUATION
The University Musical Society did not have a Section 504 self-evaluation on file. As noted in
NEA’s General Terms and Conditions for Grants and Cooperative Agreements to
Organizations, “A Section 504 self-evaluation must be on file at your organization.” A Section
504 Self-Evaluation Workbook, which can be completed online, is available at
www.arts.gov/about/504workbook.html.

Section 504 of the Rehabilitation Act of 1973, as amended, provides for equal opportunity to
enter facilities and participate in programs and activities. It does not require that every part of
every facility or program be accessible. The important considerations are that individuals with
disabilities have the same opportunities in employment, the same opportunities to enter and
move around in facilities, the same opportunities to communicate and the same opportunities to
participate in programs and activities as non-disabled people. Further, it is important to offer
employment, programs, and services in settings that are integrated rather than to segregate
individuals with disabilities with special programs. A copy of the Section 504 self-evaluation
workbook was provided to UMS during the evaluation.

EXIT CONFERENCE
An exit conference was held with UMS officials on October 10, 2008 with a follow-up telephone
call on January 27, 2010. They concurred with our findings and recommendations.


                                RECOMMENDATION
We recommend that UMS:

   1. Develop and implement written procedures to ensure that individual personnel activity
      reports are maintained for employees whose salaries are charged, in whole or in part, to
      future grant awards that are $50,000 or more.

   2. Develop and implement written procedures to ensure that UMS maintain supporting
      documentation for all expenditures including cost allocation methods.

   3. Develop and implement written procedures to provide adequate segregation of duties in
      the financial area.



                                                                                                      3
4. Conduct a Section 504 self-evaluation to ensure compliance with the Rehabilitation Act
   of 1973, as amended. (A copy of this completed document will be provided to the NEA’s
   Civil Rights/EEO Office.)




                                                                                       4
                         University Musical Society
                                    Questioned Costs
                                 Grant No. 06-5400-7030
                            Grant Period: 1/1/2006 – 6/30/2006
                                  Grant Award: $50,000


Total Costs Claimed                                              $340,682
Less: Questioned Costs
       Salary Costs                                              (111,207)
       Hospitality/Catering                                        (1,240)
       Hotel/Air                                                   (6,997)
       Hall Rental                                                (11,239)
       Programs-Allocated                                          (7,200)
       Education-Allocated                                         (9,500)
       Marketing-Allocated                                        (20,363)
Total Allowable Costs                                            $172,936
Less : NEA Share of Allowable Costs                               (50,000)
Subtotal                                                         $122,936
Less: Grant Match                                                 (50,000)
Grant Overmatched                                                 $72,936




                                                                        5
